               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                Passport Personally
              Identifiable Information

         Management Advisory Report




                                              May 15, 2014

Report Number HR-MA-14-007
                                                                             May 15, 2014
                                             Passport Personally Identifiable Information
                                                           Report Number HR-MA-14-007




BACKGROUND:
This report responds to a request from           customers with adequate privacy when
U.S. Congressman Duncan Hunter of                processing passport applications. We
California regarding a constituent’s             also identified control weaknesses
concern that the U.S. Postal Service             relating to transmittal forms and
compromised her daughter’s personally            inconsistent passport procedures at the
identifiable information (PII) while             district level to address deficiencies the
processing her passport application. PII         DOS identified. These issues occurred
is information used to determine or trace        due to inadequate training and passport
an individual’s identity.                        application procedures and conflicting
                                                 criteria.
The Postal Service has more than 5,300
passport acceptance facilities, which            The DOS identified similar issues
accepted about 5.3 million applications          regarding the safeguarding of PII and
and collected passport revenue of more           passport application processing
than $133.2 million in fiscal year 2013.         procedures in its reviews of Postal
The Postal Service, in conjunction with          Service passport acceptance facilities.
the U.S. Department of State (DOS),              We identified about $64 million in annual
established policies and procedures to           revenue at risk if the Postal Service
ensure the security of PII to avoid theft,       does not comply with established
misuse, or loss. In addition, the DOS            procedures.
inspects Postal Service passport
facilities every 2 years as part of its          WHAT THE OIG RECOMMENDED:
oversight program.                               We recommended management
                                                 implement controls to ensure that Postal
Our objective was to evaluate the Postal         Service personnel complete and
Service’s procedures for protecting PII          document training; provide customers
on passport applications.                        with adequate privacy during the
                                                 passport application process; ensure
WHAT THE OIG FOUND:                              transmittal forms are accurate,
The Postal Service must strengthen its           appropriately retained, and monitored;
procedures for securing and protecting           and ensure consistency of passport
PII on passport applications. Although           acceptance, compliance, and
we found no indication the PII in                procedures to address deficiencies the
question was compromised, Postal                 DOS identified.
Service personnel did not always
safeguard passport PII and provide               Link to review the entire report
May 15, 2014

MEMORANDUM FOR:            KELLY M. SIGMON
                           VICE PRESIDENT, RETAIL CHANNEL OPERATIONS

                           EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Business

SUBJECT:                   Management Advisory Report – Passport Personally
                           Identifiable Information (Report Number HR-MA-14-007)

This report presents the results of our review of Passport Personally Identifiable
Information (Project Number 13YG039HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Passport Personally Identifiable Information                                                                      HR-MA-14-007




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Safeguarding Passport Personally Identifiable Information ............................................. 2

   Passport Applications, Transmittals, and Supporting Documents ............................... 2

   Customer Privacy ........................................................................................................ 4

   Department of State Acceptance Facility Oversight Reviews ...................................... 5

Passport Application Procedures .................................................................................... 5

   Passport Transmittal Forms......................................................................................... 5

   Passport Acceptance Policies and Procedures ........................................................... 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Other Impact ............................................................................................. 14

Appendix C: Management’s Comments ........................................................................ 16
Passport Personally Identifiable Information                                                     HR-MA-14-007



Introduction

This report presents the results of our review of passport personally identifiable
information (PII) (Project Number 13YG039HR000). The report responds to a request
from the office of U.S. Congressman Duncan Hunter of California regarding a
constituent’s concern that the U.S. Postal Service compromised her daughter’s PII
when processing her passport application. Our objective was to evaluate the Postal
Service’s procedures for protecting and securing PII on passport applications. See
Appendix A for additional information about this review.

In November 2012, a mother and daughter applied for passports at a Post Office in San
Diego, CA. The mother received her passport in about 10 days; however, unit personnel
found the daughter’s application unsecured at the Post Office 23 days after it was
accepted and personnel at a Tucson, AZ Post Office subsequently misfiled the
application for 10 days before redelivering it to the regional passport office. The Postal
Service reimbursed the family for costs associated with the delay in service. The Postal
Service’s Consumer and Industry Contact and the U.S. Postal Service Office of
Inspector General's (OIG) Office of Investigations conducted independent investigations
and found no evidence that the Postal Service compromised the PII in question.

The Postal Service has been providing passport application acceptance services for the
U.S. Department of State (DOS) since 1975. Postal Service passport acceptance
agents1 must follow DOS policies for safeguarding passport applicants’ PII. PII is
information used to determine or trace an individual’s identity, such as a Social Security
Number, driver’s license number, or passport number.2 To avoid theft, misuse, or loss,
authorized employees must secure and lock PII in a container at all times.

The DOS inspects Postal Service passport facilities every 2 years as part of its
Acceptance Facility Oversight (AFO) program.3 In fiscal year (FY) 2013, the DOS
reviewed 2,954 Postal Service facilities to verify their compliance with key requirements
for passport application processing, such as acceptance and information security
procedures,4 supplies, and training. When the DOS identifies deficiencies and a facility
continues to be noncompliant, the DOS can recommend suspension or removal of that
facility from participation in the passport program.




1
  Employees who have completed the mandatory passport training and been certified by the DOS to accept passport
applications.
2
  Handbook AS-805, Information Design and Control, Section 3-2.3.2.c, page 37, May 2013.
3
  Monitors each acceptance facility’s compliance with established DOS procedures.
4
  This section of the AFO program addresses the safeguarding of PII.
                                                          1
Passport Personally Identifiable Information                                                             HR-MA-14-007



Conclusion

The Postal Service must strengthen its procedures for securing and protecting PII
related to passport applications, but we found no indication that the Postal Service
compromised the constituent’s daughter's PII. We also identified control weaknesses
relating to transmittal forms and inconsistent passport procedures at the district level.
The DOS identified similar issues in its AFO reviews of Postal Service passport
acceptance facilities. The revenue the Postal Service generates for processing
passports and photographs is at risk if passport acceptance facilities continue to be
noncompliant with DOS procedures. We identified about $128 million as revenue at risk
based on FYs 2012 and 2013 DOS AFO reviews. See Appendix B for more information.

Safeguarding Passport Personally Identifiable Information

Postal Service passport acceptance agents did not always safeguard passport PII and
provide customers with adequate privacy during the passport application process.

Passport Applications, Transmittals, and Supporting Documents

At the three Postal Service passport acceptance facilities we visited, 5 acceptance
agents did not always secure completed passport applications6 when they were away
from the retail window. We observed supporting documentation passport customers left
behind that was not stored in locked cabinets or drawers. This documentation contained
PII such as valid passports, birth certificates, and driver’s licenses. We found transmittal
forms7 with customer names, birth dates, and telephone numbers in envelopes on
desktops, in storage rooms, or in cabinets and drawers on the workroom floor, where
they were accessible to unauthorized personnel.

These passport control weaknesses occurred because acceptance agents were not
aware of the requirements to properly safeguard documentation containing PII in a
locked file cabinet or drawer8 or there was an oversight. Also, one acceptance agent
acknowledged she was unaware of the requirements for handling documents left by
passport customers. During our review, management issued supplemental guidance to
retail units addressing the safeguarding of PII collected from customers; therefore, we
are not making a recommendation.

We found that some personnel were unaware of PII requirements because they may not
have completed the required passport acceptance training. Specifically, 65 percent of

5
  We visited the           Post Office in                  ; the         Post Office in              ; and the
Station in                 .
6
  Form DS-11, Application for a U.S. Passport. Completed passport applications may include a customer’s valid
passport, birth certificate, photograph, and copy of his or her driver’s license.
7
  Postal Service (PS) Form 5659, Daily Passport Application (DS-11) Transmittal, is used by Post Office acceptance
facilities to log individual passport application activity for the DOS and the Postal Service. For this report, PS Forms
5659 will be referred to as transmittal forms.
8
  Passport Agent’s Reference Guide (PARG) 2011-2012, pages 12 and 18, Item 13 requires employees to store
applications and documents under lock and key when away from their workstation and keep copies of transmittals in
a secure location, accessible only to designated acceptance agents and the passport program manager.

                                                            2
Passport Personally Identifiable Information                                                            HR-MA-14-007



acceptance agents at the three passport acceptance facilities we visited did not have
documentation to show they completed the required passport acceptance training. Of
the 17 acceptance agents’ training records we requested for review,9 management was
unable to provide training records showing completion10 of either the initial passport
application acceptance training or the annual passport application acceptance refresher
course for 11 agents.11 The DOS requires management to verify that all acceptance
agents have completed training within the past calendar year and new agents have
completed training before accepting passport applications.12 Postal Service policy
requires all agency-sponsored training to be recorded in the appropriate electronic
database.13 The manager, Learning Development and Diversity,14 must maintain
support for non-agency training, including copies of certificates and grade reports.
During our review, management implemented additional procedures requiring
supervisors at acceptance facilities to maintain and provide annual passport training
documentation to the DOS.

Figures 1 through 3 show examples of improperly secured passport applications,
transmittal forms, and supporting documentation.

     Figure 1: Unsecured Passport Applications and Supporting Documentation




                  Source: OIG photograph taken at a Post Office on November 5, 2013.




9
  We requested training records for the 17 acceptance agents at the three locations we visited.
10
   An acceptance agent has successfully completed training upon completion of the course and required test.
11
   Of the 11 agents, all were missing supporting documentation for the initial training and one of the 11 was missing
documentation for the refresher training.
12
   PARG, page 8.
13
   Employee and Labor Relations Manual (ELM) 36, Section 732.2, page 718.
14
   ELM 36, Section 742.4, page 722.

                                                           3
Passport Personally Identifiable Information                                         HR-MA-14-007




                            Figure 2: Unsecured Transmittal Forms




                Source: OIG photograph taken at a Post Office on November 7, 2013.

                         Figure 3: Unsecured Supporting Documents




                Source: OIG photograph taken at a Post Office on November 7, 2013.

Customer Privacy

At one Postal Service facility we visited, management did not provide customers with
adequate privacy when processing their passport applications. We observed an
acceptance agent processing passport applications in the middle window of the main
retail area, which was highly visible and accessible to customers waiting in line. During
interactions with passport customers, the acceptance agent asked them to verbally
confirm portions of the passport application, which revealed PII in the presence of other
customers. The acceptance agent stated that agents previously processed passport
applications in a separate, private area at this facility; however, facility management
changed the location and required agents to process passport applications in the retail
area. Management indicated it would be inefficient to have agents process passport
applications in a separate area because they would have down time between passport


                                                     4
Passport Personally Identifiable Information                                                          HR-MA-14-007



appointments. The PARG requires acceptance facilities to create an area where
customers are afforded privacy when applying for passports.15

Department of State Acceptance Facility Oversight Reviews

Lastly, we reviewed results from DOS reviews16 and found they identified similar issues
with Postal Service acceptance agents safeguarding PII.17 For example:

    Acceptance agents at 383 of 2,954 Postal Service passport acceptance facilities
     (13 percent) did not properly secure passport applications and documentation when
     away from their workstations.

    Acceptance agents at 920 of 2,954 facilities (31 percent) did not properly store
     transmittal forms under lock and key.

    Acceptance agents improperly retained photocopies of passport applications or
     supporting documentation at 91 of 2,954 facilities reviewed (3 percent).

    Management did not provide customers with sufficient space to maintain privacy
     when applying for passports at 64 of 2,954 facilities reviewed (2 percent).

Inadequate security and privacy in the passport application process increases the risk
that customers’ PII will be compromised. This could have a negative impact on the
Postal Service’s brand and result in revenue loss if customers elect not to use the
Postal Service for passport services. We identified about $64 million in annual revenue
at risk associated with passport acceptance facilities potentially being suspended or
closed for noncompliance with DOS procedures. See Appendix B for more information.

Passport Application Procedures

Postal Service officials did not always follow consistent procedures relating to
transmittal forms and district management’s roles and responsibilities relating to
passport acceptance, compliance, and remediation.

Passport Transmittal Forms

Acceptance agents at the three facilities we visited did not always use the transmittal
form to monitor and record successful delivery of envelopes containing passport
applications to banking facility lockboxes18 within 7 days, as required. In addition,

15
   PARG, page 12.
16
   These results represent DOS AFO reviews conducted during FY 2013.
17
   We reviewed an AFO summary report and determined the DOS identified issues in FY 2012 with proper security of
passport applications and documentation and proper storage of transmittal forms during two separate reviews at one
Post Office we visited.
18
   The DOS uses banking facilities to complete the initial processing of passport applications, including data entry,
image scanning, and payment processing and then they forward applications to Passport Services for further
processing.

                                                          5
Passport Personally Identifiable Information                                                            HR-MA-14-007



acceptance agents did not always obtain independent reviews of transmittal forms to
ensure accuracy and completeness or retain and dispose of the transmittals within
2 years, as required.19

These issues occurred for the following reasons:

    Passport acceptance agents stated they were unaware of the requirement to monitor
     and record successful delivery of envelopes containing passport applications within
     7 days. One agent believed the requirement was to monitor delivery every 14 days 20
     but policy requires acceptance agents to monitor each envelope containing passport
     applications sent from the facilities within 7 business days until Passport Services21
     confirms receipt.

    Management did not have procedures in place to ensure the independent review of
     completed transmittal forms for accuracy and acceptance agents were unaware of
     this requirement. The Administrative Support Manual (ASM) requires a supervisor or
     another employee to review the accuracy of the completed transmittal form and
     related applications. The reviewer must initial the “Reviewer Initials” line to indicate
     concurrence.22

    A supervisor at one site we reviewed was unaware of the importance of
     safeguarding PII on transmittal forms.

    The Postal Service did not have procedures in place to ensure employees retain
     transmittal forms for 2 years, as required, and the Postal Service has conflicting
     guidance regarding retention requirements. According to the ASM, employees must
     store transmittal forms in a secure place to protect the sensitivity of the information
     and destroy them after 2 years.23 However, Exhibit 892 - Retention Periods for Post
     Office Forms, which is unique to the online version of the ASM, indicates the
     retention period for the transmittal forms is 3 months. Postal Service officials
     confirmed the correct retention period is 2 years.

We also examined the DOS reviews and found they identified similar issues with
transmittal forms. Specifically, acceptance agents did not:

    Monitor the successful delivery confirmation of each envelope sent to the lockbox at
     889 of 2,954 facilities reviewed (30 percent).

    Destroy transmittals after 2 years at 821 of 2,954 facilities reviewed (28 percent).


19
   Acceptance agents at one of the facilities had transmittal forms on file from January 2007, while one facility
retained transmittal forms for only 3 months.
20
   The back of the transmittal form provides thorough instructions on how to complete every section of the form
except for the section relating to monitoring and documenting successful delivery of the envelope.
21
   PARG, page 42; and Postal Blue website, Tracking of PPT Mailings.
22
   ASM; page 181; Section 422.281(b); Item 8, July 1999; updated through November 28, 2013.
23
   ASM, page 182, Section 422.282(c).

                                                           6
Passport Personally Identifiable Information                                                          HR-MA-14-007



    Keep transmittals for at least 2 years at 1,010 of 2,954 facilities reviewed
     (34 percent).

When transmittal forms are not properly completed, reviewed, retained, and destroyed,
the Postal Service increases the risk of inaccuracies, processing delays, and PII being
compromised. Also, the Postal Service may lose passport revenue resulting from
potential site closures for noncompliance with procedures.

Passport Acceptance Policies and Procedures

Postal Service management did not have policies and procedures in place that
identified district management’s roles and responsibilities for the passport acceptance
program or addressed deficiencies the DOS AFO reviews identified. Specifically, at one
site we visited, district managers were proactively reviewing passports at select
Premiere Post Office™ locations24 independent of DOS reviews, while the other two
districts relied on DOS reviews to identify deficiencies and enforce corrective actions.

Management acknowledged the need for policies and procedures to ensure consistency
nationwide. District retail managers for all three sites visited stated that no guidelines or
procedures existed for districts to address deficiencies identified in DOS AFO reviews.
Implementing policies and procedures would strengthen internal controls over passport
acceptance at all Postal Service acceptance facilities, increase district accountability,
and ensure consistent processes for addressing deficiencies identified in DOS AFO
reviews.

Recommendations

We recommend the vice president, Retail Channel Operations, in coordination with the
vice president, Delivery and Post Office Operations:

1. Ensure all acceptance agents have completed the required passport acceptance
   training.

2. Require responsible personnel adhere to policies and procedures for appropriately
   safeguarding customers’ privacy and personally identifiable information associated
   with the passport acceptance process.

3. Revise the Postal Service Form 5659, Daily Passport Application (DS-11)
   Transmittal, to include instructions for monitoring and recording the delivery date of
   the completed passport application on the form.

4. Implement controls to ensure completed transmittal forms are independently
   reviewed for accuracy and retained as required by Postal Service policy.


24
  The Postal Service has selected 3,100 post offices to participate in its Premier Post Office program, which created
a core of retail offices with the highest customer service skills and best customer experience.

                                                          7
Passport Personally Identifiable Information                                 HR-MA-14-007



5. Revise the online version of the Administrative Support Manual to reflect the correct
   transmittal form retention period of 2 years.

6. Establish and implement policies and procedures identifying district management’s
   roles and responsibilities relating to passport acceptance procedures and
   remediation of deficiencies identified in Department of State reviews.

Management’s Comments

Management did not state whether they agreed or disagreed with the findings.
Management agreed with recommendations 3, 5, and 6; and disagreed with
recommendations 1, 2, and 4. In addition, management disagreed with the revenue at
risk calculation.

Management disagreed with recommendation 1 and stated that their current policies
require annual training. Employees who do not take the annual training are decertified
and therefore not allowed to accept passports. The DOS provides this information to the
Headquarters’ Passport program manager as well as the local Post Office notifying
them of employees not in compliance. Employees that complete the training are
recertified.

Management disagreed with recommendation 2 and stated that policies and procedures
are already in place requiring employees to safeguard PII. Management continually
communicate to employees the need for information security and has recently issued
additional guidance reminding employees of the importance of safeguarding PII.

Management agreed with recommendation 3 and will revise PS Form 5659 to include
instructions for monitoring and recording the delivery date of the completed passport
application on the form by May 30, 2014.

Furthermore, management disagreed with recommendation 4 and stated the ASM
already requires a supervisor or another employee to review the accuracy of the
completed transmittal form and related applications. The reviewer must initial the
"Reviewer Initials" line to indicate concurrence. PS Form 5659 also has instructions to
complete the form.

Management agreed with recommendation 5 and stated they took corrective actions on
May 5, 2014, to ensure the correct transmittal form retention period.

Management agreed with recommendation 6 and stated they will work with the DOS to
develop a standard operating procedure that outlines the roles and responsibilities of
the DOS and the Postal Service in regard to handling passports. The target
implementation date is May 30, 2014.

Regarding the $128 million in revenue at risk, management disagreed with the
methodology used and stated the calculation was based on 2 year old data.


                                               8
Passport Personally Identifiable Information                                   HR-MA-14-007



Additionally, management stated the OIG is using DOS audit results out of context
because the requirements are answered/corrected after each audit. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments to recommendations 3, 5, and 6
responsive and corrective actions should resolve the issues identified in the report.

However, we consider management's comments to recommendations 1, 2, and 4
nonresponsive because they did not address the actions needed to resolve the issues
identified. Management disagreed with the recommendations and stated that current
Postal Service policy exists to address each recommendation. While we agree that
current Postal Service policy exists and we identify those policies in our findings, our
recommendations are for management to take corrective actions to ensure responsible
personnel comply with policies and procedures. As such, we view the recommendations
as unresolved, but do not plan to pursue them through the audit resolution process. We
will work with management to develop a mutually agreeable resolution.

Regarding recommendation 1, management did not provide documentation to show that
11 of 17 acceptance agents at the three locations visited completed the required
passport acceptance training, either the initial Passport Application Acceptance training
or the annual Passport Application Acceptance Refresher course. Although
management strongly agree that training is required, they did not address how they will
ensure compliance with the training requirement.

Regarding recommendation 2, the OIG agrees that management has disseminated
additional guidance to the field regarding safeguarding PII; however, our
recommendation addresses the need to ensure acceptance facilities have an area
where passport customers are afforded privacy when applying for passports, which
management did not address in their comments.

Regarding recommendation 4, we agree that current Postal Service policy exists
requiring the independent review and retention of transmittal forms. Management did
not address our recommendation to implement controls to ensure employees are
following the policy.

Regarding our revenue at risk calculation, the OIG used the latest DOS data available,
which was for FYs 2012 and 2013. We used 2 years’ worth of data because the DOS
visits each acceptance facility at least once every 2 years. If an acceptance facility does
not comply with policies for safeguarding PII, the DOS may suspend or close it. In
addition, management does not have established procedures in place to address
deficiencies identified in the DOS reviews. Because internal controls were not sufficient
to ensure the safeguarding of PII and address deficiencies, revenue was at risk.




                                               9
Passport Personally Identifiable Information                               HR-MA-14-007



Because management has taken corrective actions to resolve recommendation 5, we
are closing the recommendation with issuance of this report. For recommendations 1, 2,
and 4, we request additional information from management to address corrective
actions planned or taken to resolve the issues identified in the report. The OIG
considers all the recommendations significant, and therefore requires OIG concurrence
before closure of recommendations 1 through 4 and 6. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




                                               10
Passport Personally Identifiable Information                                    HR-MA-14-007



                                   Appendix A: Additional Information

Background

The OIG received a request on April 9, 2013, from the office of Duncan Hunter, U.S.
Congressman from California, regarding a constituent’s concern with Postal Service
procedures for handling PII. In November 2012, the constituent and her daughter
applied for passports at a Post Office in San Diego, CA. The mother received her
passport in about 10 days; however, unit personnel found the daughter’s application
unsecured at the Post Office 23 days after it was accepted and personnel at a Tucson,
AZ, Post Office subsequently misfiled it for 10 days before redelivering it to the regional
passport office. The Postal Service reimbursed the family for costs associated with the
delay in service. The Postal Service’s Consumer and Industry Contact and OIG Office
of Investigations conducted independent investigations, but neither found evidence the
Postal Service compromised the PII in question.

The Postal Service, in coordination with the DOS, establishes procedures for passport
application acceptance at the 5,37225 Postal Service passport acceptance facilities
nationwide. Each passport application is accepted by authorized Postal Service
employees who have successfully completed the initial and yearly refresher passport
training courses. Employees can take the courses either online in the Postal Service’s
Learning Management System or in a classroom the DOS provides. The initial Passport
Application Acceptance course is an 8-hour mandatory course intended for employees
newly assigned to passport acceptance duties. The yearly passport application
acceptance refresher course is a 2-hour mandatory course for employees currently
accepting passport applications.26

Acceptance agents process passport applications at designated Postal Service
passport acceptance facilities. At the end of each business day, agents mail passport
applications with transmittals to the DOS and retain copies of the transmittals in a
secure location at the facility. The Postal Service accepted 5.7 million passport
applications and earned $142.1 million in passport fees in FY 2012 and accepted
5.3 million applications yielding $133.2 million in fees in FY 2013. The Postal Service
also generates revenue from its passport photograph services.

The DOS conducts scheduled official onsite reviews at Postal Service passport
acceptance locations as part of its AFO program. The program monitors acceptance
facilities’ compliance with the PARG and other consular affairs/passport services
procedures. The reviews address key areas such as acceptance and information
security procedures, supplies, and training. The DOS sends the results of its reviews to
unit, district, and area management. Well publicized disclosures of U.S. citizens’ PII by
the federal government and its employees have resulted in heightened scrutiny of
agency information security and privacy programs. Although the federal government is
making strides to protect against privacy breaches, Federal Information Security

25
     As of March 25, 2014.
26
     Postal Blue website, Customer Service Operations and Retail.

                                                          11
Passport Personally Identifiable Information                                                        HR-MA-14-007



Management Act27 reports indicate the prevalence of federal privacy breaches. The
potential adverse impacts of a privacy breach is a key motivator for the federal
government to enhance efforts to comply with privacy regulations and protect the
privacy of citizens and noncitizens.

Objective, Scope, and Methodology

Our objective was to evaluate the Postal Service’s procedures to protect and secure PII
on passport applications. To accomplish our objective, we:

    Reviewed passport application data for FYs 2012 and 2013.
    Conducted site visits at three passport acceptance units.28
    Interviewed management at headquarters and in the field.
    Interviewed DOS personnel.
    Obtained and reviewed DOS passport acceptance site review results.

We conducted this review from October 2013 through May 2014, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on March 25, 2014, and included their comments where appropriate.

We assessed the reliability of the passport application data from the Enterprise Data
Warehouse (EDW) by confirming our analysis and results with management and other
data sources. In addition, the OIG tests the financial information in the EDW as part of
its annual financial statements audits. We assessed the reliability of the DOS' site
review data by interviewing DOS officials and analyzing source documentation to
confirm the validity of the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The OIG issued Financial Controls Over Passport Applications (Report Number FF-AR-
11-011, dated July 27, 2011), which details three areas where the Postal Service has
opportunities to enhance its financial controls over passport applications and revenue
associated with fees collected.




27
  Federal Information Security Management Act of 2002, Public Law 107-347.
28
  The         Post Office in           is where the incident occurred. We judgmentally selected the           Post
Office in         and the              Station in         , based on the high volume of passport applications
processed at these locations during FY 2013.

                                                        12
Passport Personally Identifiable Information                                    HR-MA-14-007




Specifically, the Postal Service needs:

   A reconciliation process for collecting and reporting application fees collected at
    acceptance facilities.

   Improved controls over fees collected for passport photographs.

   A re-evaluation of the fee charged for passport photographs.

Management did not agree to develop a reconciliation process with the DOS; however,
they did implement a Point-of-Sale system update they believe will increase the
accountability of passport fees. Management stated they would evaluate options to
improve accountability, reduce the risk of having uncollected revenue associated with
photograph fees, and re-evaluate the fee charged for passport photographs.




                                               13
Passport Personally Identifiable Information                                                                HR-MA-14-007




                                          Appendix B: Other Impact

          Recommendation                         Other Impact Category                            Amount
               1-6                                 Revenue at Risk29                            $128,351,511

The DOS conducts reviews at Postal Service passport acceptance locations every
2 years as part of its AFO program. The reviews address key areas such as acceptance
and information security procedures, supplies, and training. DOS management
discusses review results with unit management and sends corresponding reports to
acceptance facilities’ district and area managers. The DOS revisits the facilities with
identified deficiencies within 6 to 12 months to determine whether management
corrected the issues. Continuous noncompliance can lead to the DOS recommending a
site be suspended from participating in the passport program.30 The DOS determines
removal of a facility from the program on a case-by-case basis, based on the level of
egregiousness.31

During FYs 2012 and 2013, DOS reviews identified 3,278 Postal Service passport
application acceptance locations with deficiencies relating to safeguarding PII. We relied
on DOS AFO review results, in conjunction with the Postal Service’s passport
application and photograph volume data, to calculate revenue at risk (other impact).

The DOS can recommend the suspension or removal of a Post Office from the passport
program if management does not correct the deficiencies regarding safeguarding PII
identified in DOS reviews. Consequently, the Postal Service risks losing $103,603,203
in revenue annually and $207,206,405 over a 2-year period if these acceptance
locations are suspended or closed.

For this report, we took a conservative approach and used net revenue32 to calculate
other impact. As a result, the Postal Service risks losing $64,175,756 in net revenue
annually and $128,351,511 over a 2-year period.

To determine revenue at risk, we used the following methodology:

    We estimated the Postal Service generates a net profit of about $14.82 for each
     passport application it processes and about $10.76 for each passport photograph it
     sells.
    We analyzed the Postal Service’s passport application data and DOS AFO review
     data for FYs 2012 and 2013 and determined that 6,517,655 passport applications


29
   Revenue the Postal Service risks losing.
30
   Passport Services, a directorate within the DOS, may suspend the facility until further notice or until the facility is
deemed to be in compliance with all regulations.
31
   DOS officials can recommend the closure of a facility based on the level of egregiousness. However, the DOS
Customer Service manager, in coordination with Postal Service officials, ultimately makes the final decision.
32
   Money earned after all expenses have been deducted from the total revenue.

                                                             14
Passport Personally Identifiable Information                                                        HR-MA-14-007



     (60 percent) and 2,951,002 passport photographs (58 percent) were processed at
     3,278 facilities that were noncompliant with at least one PII procedure.33
    We calculated net revenue at risk of $64,175,75634 annually if these Postal Service
     passport acceptance facilities are suspended or closed for continuous
     noncompliance.
    We calculated net revenue at risk of $128,351,511 for a 2-year period.




33
   Noncompliance with any procedure relating to safeguarding PII may result in DOS closing the noncompliant Postal
Service passport acceptance facility.
34
   Consists of $48,295,824 (3,258,828 applications x $14.82 passport application profit) and $15,879,932 (1,475,501
photographs x a $10.76 profit per photograph).

                                                        15
Passport Personally Identifiable Information                    HR-MA-14-007




                            Appendix C: Management’s Comments




                                               16
Passport Personally Identifiable Information        HR-MA-14-007




                                               17
Passport Personally Identifiable Information        HR-MA-14-007




                                               18
Passport Personally Identifiable Information        HR-MA-14-007




                                               19
